GR-50-98-033
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE CLEVELAND, OHIO POLICE DEPARTMENT
 
Award Numbers 95-CN-WX-0005, 95-CL-WX-0023, 
95-CC-WX-0355, and 95-TC-WX-1190
Audit Report Number GR-50-98-033
September 23, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Cleveland, Ohio Police Department (CPD). The CPD was awarded
$4,575,000 under COPS Accelerated Hiring, Education, and Development (AHEAD) and the
supplemental Universal Hiring Program (UHP) to hire 61 officers. In addition, the CPD
received $1,305,445 under the Making Officer Redeployment Effective (MORE) to redeploy
31.5 full-time equivalents (FTE) over 3 years into community policing, and $634,842 under
the Youth Firearms Violence Initiative (YFVI) to develop innovative community policing and
enforcement efforts to curb the rise of youth firearms violence. The CPD was also awarded
a $20,000 TROOPS TO COPS grant to train four separated members of the armed forces as law
enforcement officers. The purpose of the grants is to enhance community policing efforts. 
In brief, our audit revealed the following: 


 The average officers' salaries and benefits in the CPD's approved budgets were
    overstated. As a result, the grant awards for the AHEAD, supplemental UHP, and YFVI grants
    were overstated by about $14,667, $287,431, and $35,188, respectively. Accordingly, these
    grants should be adjusted downward by a total of about $337,286. 
 The CPD did not establish and maintain an adequate accounting system to
    accumulate and summarize COPS grant expenditures. Reimbursement requests were based on
    estimated costs. As a result, reimbursements under the COPS AHEAD exceeded the 53 percent
    specified in the approved budget by 27 percent. We question $194,860 overstated
    reimbursement. 
 Costs charged to the AHEAD and supplemental UHP grant awards were not in
    accordance with grant requirements because the CPD received reimbursement but did not
    maintain the minimum number of officers required under the grants. Consequently, we
    question $208,651 and $219,223 for the AHEAD and UHP grants, respectively.
 Reimbursements requested and received under the YFVI award exceeded allowable
    costs. This occurred because the CPD charged costs to and requested reimbursement from the
    grant after the grant expired on September 30, 1996. In addition, for the 3rd quarter of
    1996, the CPD charged the salaries and benefits of 11 officers to the grant, while only 10
    officers were redeployed during that period. Consequently, we question $112,729 overstated
    reimbursement. 
 The CPD did not track the number of FTEs redeployed into community policing. By
    law, the funds requested under COPS MORE must result in an increase in the number of FTEs
    deployed into community policing. However, since the CPD did not maintain adequate officer
    redeployment records, we were unable to determine whether the COPS MORE grant resulted in
    an increase in FTEs redeployed into community policing. As a result, we question $684,906
    charged to the grant as unsupported and recommend the remaining $620,539 be withheld until
    the CPD starts tracking redeployment. 
 Seven of 34 Financial Status Reports were not submitted to OJP, while another 25
    were submitted late. In addition, while all funds awarded under the TROOPS TO COPS grant
    were drawn down in May 1996, as of the time of our audit, the final Financial Status
    Report for this grant had not been filed. Further, except for the TROOPS TO COPS grant,
    costs reported in the Financial Status Reports were not accurate. 


#####